<html>
<title> - U.S.-EUROPEAN COOPERATION ON CHINA AND THE BROADER INDO-PACIFIC</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]




 
    U.S.-EUROPEAN COOPERATION ON CHINA AND THE BROADER INDO-PACIFIC

=======================================================================

                             JOINT HEARING

                               BEFORE THE

 SUBCOMMITTEE ON ASIA, THE PACIFIC, CENTRAL ASIA, AND NONPROLIFERATION

                                  and

       SUBCOMMITTEE ON EUROPE, ENERGY, THE ENVIRONMENT AND CYBER

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 20, 2021

                               __________

                           Serial No. 117-60

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                            ______                      

              U.S. GOVERNMENT PUBLISHING OFFICE 
 45-169 PDF              WASHINGTON : 2021 
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                  GREGORY W. MEEKS, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
ALBIO SIRES, New Jersey                  Member
GERALD E. CONNOLLY, Virginia         CHRISTOPHER H. SMITH, New Jersey
THEODORE E. DEUTCH, Florida          STEVE CHABOT, Ohio
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       DARRELL ISSA, California
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                ANN WAGNER, Missouri
DINA TITUS, Nevada                   BRIAN MAST, Florida
TED LIEU, California                 BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania             KEN BUCK, Colorado
DEAN PHILLIPS, Minnesota             TIM BURCHETT, Tennessee
ILHAN OMAR, Minnesota                MARK GREEN, Tennessee
COLIN ALLRED, Texas                  ANDY BARR, Kentucky
ANDY LEVIN, Michigan                 GREG STEUBE, Florida
ABIGAIL SPANBERGER, Virginia         DAN MEUSER, Pennsylvania
CHRISSY HOULAHAN, Pennsylvania       AUGUST PFLUGER, Texas
TOM MALINOWSKI, New Jersey           PETER MEIJER, Michigan
ANDY KIM, New Jersey                 NICOLE MALLIOTAKIS, New York
SARA JACOBS, California              RONNY JACKSON, Texas
KATHY MANNING, North Carolina        YOUNG KIM, California
JIM COSTA, California                MARIA ELVIRA SALAZAR, Florida
JUAN VARGAS, California              JOE WILSON, South Carolina
VICENTE GONZALEZ, Texas              RON WRIGHT, Texas
BRAD SCHNEIDER, Illinois

                                     
                                   
                                     
                                     
                                    

                    Sophia Lafargue, Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

 Subcommittee on Asia, the Pacific, Central Asia, and Nonproliferation

                    AMI BERA, California, Chairman,

BRAD SHERMAN, California             STEVE CHABOT, Ohio, Ranking Member
DINA TITUS, Nevada                   SCOTT PERRY, Pennsylvania
ANDY LEVIN. Michigan                 ANN WAGNER, Missouri
CHRISSY HOULAHAN, Pennsylvania       KEN BUCK, Colorado
ANDY KIM, New Jersey                 TIM BURCHETT, Tennessee
GERALD CONNOLLY, Virginia            MARK GREEN, Tennessee
TED LIEU, California                 ANDY BARR, Kentucky
ABIGAIL SPANBERGER, Virginia         YOUNG KIM, California
KATHY MANNING, North Carolina

  
                      Jamie Morgan, Staff Director
                                 ------                                

        Subcommittee on Europe, Energy,the Environment and Cyber

              WILLIAM R. KEATING, Massachusetts, Chairman

SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania, 
ABIGAIL SPANBERGER, Virginia             Ranking Member
ALBIO SIRES, New Jersey              ANN WAGNER, Missouri
THEODORE DEUTCH, Florida             ADAM KINZINGER, Illinois,
DAVID CICILLINE, Rhode Island        BRIAN MAST, Florida
DINA TITUS, Nevada                   DAN MEUSER, Pennsylvania
DEAN PHILLIPS, Minnesota             AUGUST PFLUGER, Texas
JIM COSTA, California                NICOLE MALLIOTAKIS, New York
VICENTE GONZALEZ, Texas              PETER MEIJER, Michigan
BRAD SCHNEIDER, Illinois

                                    

                      Leah Nodvin, Staff Director
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page

                   MATERIALS SUBMITTED FOR THE RECORD

Materials submitted for the record from Chair Bera...............     3

                               WITNESSES

Goodman, Mr. Matthew, Senior Vice President for Economics, Center 
  for Strategic and International Studies........................    13
Ferchen, Dr. Matt, Head of Global China Research, Mercator 
  Institute for China Studies....................................    24
Conley, Ms. Heather, Senior Vice President for Europe, Eurasia, 
  and the Arctic, Director, Europe, Russia, and Eurasia Program, 
  Center for Strategic and International Studies.................    34
Rough, Mr. Peter, Senior Fellow, Hudson Institute................    43

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Additional materials submitted for the record from Representative 
  Perry..........................................................    60

                                APPENDIX

Hearing Notice...................................................    86
Hearing Minutes..................................................    87
Hearing Attendance for Asia Subcommittee.........................    88
Hearing Attendance for Europe Subcommittee.......................    89

                        STATEMENT FOR THE RECORD

Statement for the record submitted from Representative Connolly..    90


    U.S.-EUROPEAN COOPERATION ON CHINA AND THE BROADER INDO-PACIFIC

                         Tuesday, July 20, 2021

                          House of Representatives,
                 Subcommittee on Asia, the Pacific,
   Central Asia and Nonproliferation joint with the
                Subcommittee on Europe, Energy, the
                             Environment, and Cyber
                      Committee on Foreign Affairs,
                                                    Washington, DC.

    The subcommittees met, pursuant to notice, at 2:06 p.m., 
via Webex, Hon. Ami Bera [chairman of the subcommittee on Asia] 
presiding.
    Mr. Bera. The Subcommittee on Asia, the Pacific, Central 
Asia, and Nonproliferation will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any point and all members will have 5 days to 
submit statements, extraneous material, and questions for the 
record subject to the length limitation in the rules.
    To insert something into the record, please have your staff 
email the previously mentioned address or contact full 
committee staff. Please keep your video function on at all 
times, even when you are not recognized by the chair. Members 
are responsible for muting and unmuting themselves, and please 
remember to mute yourself after you finish speaking.
    Consistent with remote committee proceedings of H.Res. 8, 
staff will only mute members and witnesses, as appropriate, 
when they are not under recognition, to eliminate background 
noise. I see we have a quorum and will now recognize myself for 
opening remarks. And as mentioned earlier to the witnesses 
unfortunately, we may have votes get called at some point 
during this hearing, in which case we will take a recess and 
then reconvene after votes.
    I would like to thank my chair, Bill Keating, and the 
Europe Subcommittee staff for partnering with us on this 
important hearing, and welcome our witnesses and members of the 
public for joining us this afternoon.
    Last month, the APCAN Subcommittee held a hearing on the 
role of liberal norms and values in U.S. foreign policy for the 
Indo-Pacific. In that hearing, our witnesses reaffirmed the 
importance of having a positive agenda and redoubling our 
commitment to the democratic values such as respect for the 
rule of law, for free markets, freedom of navigation, human 
rights, human dignity that really have been a key source of 
U.S. strength and competitiveness.
    If we think about our history post-World War II and the 
transatlantic relationship, as we came together and built a 
strong relationship between the United States and our European 
allies and partners, we not only created the most dynamic 
regions in the world, the most innovative regions of the world, 
but we advanced a common set of shared values.
    Again, values that I just mentioned of democracy; values of 
human dignity; values of free market and entrepreneurship and 
competition. Values that not only served the United States and 
Europe well, but also served the rest of the world as we 
created a partnership and a relationship that really led one of 
the most peaceful times in world history but also lifted 
millions of people around the world out of poverty.
    As we move forward into the 21st century we do see threats 
to that liberal, competitive, democratic order. We see the rise 
of authoritarianism in parts of the world, and much of this was 
discussed at the recently concluded G7 meetings which also 
included four additional advanced democracies around the world.
    And as you look at that communique, it does recognize the 
vibrancy of what is happening in the Indo-Pacific region, and 
the purpose of this hearing is to talk about how the United 
States and Europe can work together not just to continue what 
really has been a thriving partnership, but also to look at the 
other dynamic areas of the world, in this case, particularly 
the Indo-Pacific, and how we can advance through our 
partnership and like-minded values, a set and a construct that 
will serve us well in the 21st century, again building on those 
values of free markets, freedom of navigation, competition, 
human dignity, human rights and democracy.
    It is not a given which set of values will prevail in the 
21st century, but it is incumbent upon us as friends and 
longtime partners to continue to work together not just on the 
transatlantic relationship, but now on the transpacific 
relationship and how we bring those two partnerships together.
    I also would like to take the opportunity to recognize the 
work of Chairman Meeks who has been a leader in supporting the 
transatlantic partnership on a number of issues including 
climate change and infrastructure, and at this time, I would 
ask unanimous consent to enter Chair Meeks' June 28th foreign 
policy op-ed on the Build Back Better World partnership into 
the record.
    Hearing no objections, we will enter that into the record.
    [The information referred to follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
   
    Mr. Bera. I am going to keep my comments short so we can 
actually get to the witnesses and hopefully get to as many 
members as possible. And with that I want to recognize my good 
friend from Ohio, our ranking member, Representative Steve 
Chabot, for any opening comments he may have.
    Mr. Chabot. Thank you, Mr. Bera, and thank you for the 
witnesses. Mr. Chairman, a defining story of the 20th century 
was the transatlantic solidarity in the face of existential 
threats to our most closely held values. That was back in the 
20th century. The wars that our democracies fought together, 
the order that we helped shape in their aftermath vanquished 
the tyrants--principally, socialist tyrants, I would note--who 
sought to create a world in which individual liberties were 
subjugated to the interests and ideologies of the State. A 
world in which the sovereignty of smaller, weaker, or just 
plain unlucky States was trodden on by would-be hegemons.
    Regrettably, the 21st century has presented us with a new 
socialist challenge perhaps of comparable scale. Xi Jinping has 
emerged as the most power-hungry leader of the PRC since Mao 
Zedong, and under his regime the Chinese Communist Party isn't 
even trying anymore its goal of imposing--it is not making it a 
secret anymore.
    They are not trying to hide it, their goal to impose their 
authoritarian model of governance on the rest of the world and 
crush the free and open rules-based international order. 
Indeed, Xi has advertised the CCP's totalitarianism as a ``new 
option for other countries and nations who want to speed up 
their development,'' while the CCP foreign policy chief has 
publicly ridiculed what he refers to as the so-called 
international order championed by a few countries.
    In the face of this challenge, the United States and Europe 
need to stand together once again to defend the democratic 
order our parents and grandparents sacrificed so much to 
defend. And while there are reasons to be optimistic, much 
remains to be done.
    This week's announcement of a global grouping of 
democracies to counter cyber-attacks illustrates the advantage 
that like-minded democracies have over the PRC, assuming we 
pose real consequences on the perpetrators of cyber-attacks 
including against any countries that condone those cyber-
attacks, yet there is much more work as I said that we need to 
do and the stakes couldn't be higher.
    On his first foreign trip last month, President Biden 
sought to rally our European allies in support of his efforts 
to confront the CCP. We saw growing recognition of the threat 
posed by the CCP in the joint statements and communiques that 
came out of the G7, NATO and the U.S.-EU summits. Of course, 
rhetoric is not enough. Commitment and concrete action that 
results in Europe charting a tougher, more clear-eyed approach 
toward Beijing is what it will take. For example, the 
transatlantic alliance must provide a values-driven, high-
standard, transparent alternative to the predatory investments 
offered by the CCP.
    The launch of the U.S.-initiated Build Back Better World 
initiative--which could have used, I think, a better name--at 
the G7 summit to compete with PRC's Belt and Road Initiative is 
a step toward such an alternative. Yet without serious 
commitments from our European allies, this initiative will be 
ineffectual, enabling the CCP to continue buying political 
influence for investments and trade across the globe.
    Unfortunately, despite acknowledging the PRC as a systemic 
rival, the EU agreed to enter into a new investment agreement 
with China at the end of last year, further tying Europe to a 
regime willing to use any economic length as a tool of 
coercion. Retaliatory CCP sanctions on European officials who 
have criticized the regime's human atrocities and Biden's trip 
to Europe have thus far failed to convince key European member 
States to end their support for the agreement's ratification.
    And I really do look forward to hearing from our expert 
witnesses here today on additional concrete steps that the 
alliance can take. We must work together with our allies across 
the Atlantic to ensure that democracies prevail over the threat 
posed by the CCP. And so again, Mr. Chairman, I appreciate you 
holding this hearing today and look forward to hearing all the 
testimony and asking questions. Thank you and I yield back.
    Mr. Bera. Thank you, Mr. Chabot. I now yield 5 minutes to 
my friend, Representative Bill Keating, the chair of the 
Subcommittee on Europe, Energy, the Environment and Cyber for 
any opening comments he may have.
    Mr. Keating. Thank you, Mr. Chairman.
    For the first time ever, at last month's summit in 
Brussels, NATO members agreed that China's stated ambitions and 
assertive behavior presents systemic challenges to the rules-
based order, clearly demonstrating the extent of the challenge 
China poses to the transatlantic alliance. But I believe also 
it shows and exemplifies the determination of the U.S. and our 
European allies to rise to this challenge.
    It is this determination that inspired Chair Bera, Ranking 
Member Chabot, Ranking Member Fitzpatrick, and I to organize 
this hearing today, where we will seek to better understand the 
current State of European engagement with China as well as how 
we might cooperate more closely in the greater Indo-Pacific 
region.
    The question of how to respond to a rising China has 
consumed foreign policy debates in recent years, but a number 
of the recent developments bear closer examination. 
Economically, China has made a concerted effort to expand its 
global influence through the Belt and Road Initiative. In 2020 
alone, China invested $65 billion in countries around the world 
and that number is only expected to grow in the coming years. 
Many of these investments lack transparency and accountability, 
particularly in the energy and transportation sectors, and they 
are often predatory in nature, putting nations around the world 
into grave financial danger.
    On the military front, the People's Liberation Army has 
grown increasingly assertive throughout the Indo-Pacific. From 
border clashes with India to illegal island building in the 
South China Sea to increasing frequent incursions around 
Taiwan, China continues its efforts to provoke maritime 
military conflict. At the same time, China's continued 
development with nuclear capabilities and military applications 
for emerging technologies like artificial intelligence remain 
firmly under wraps.
    This lack of transparency only further fosters distrust. We 
could talk for much of the time that we are allotted today on 
many of the pitfalls of a rising China, but we also need to 
take action. That is why the House Foreign Affairs Committee 
passed the EAGLE Act out of the markup last week to be voted on 
the House floor.
    This comprehensive piece of legislation calls for the 
revitalization of American diplomacy, leadership, and 
investments, globally, in response to the policy changes that 
are posed by China. Fortunately, the United States does not 
stand alone in its concern about these developments. In June, 
the leaders of the G7 joined President Biden in announcing the 
Build Back Better World initiative, a project that will advance 
both infrastructure and democratic development around the 
world. Further, the European Commission is currently drafting a 
comprehensive Indo-Pacific strategy, one that will encompass 
trade, security, and climate change mitigation and more.
    Finally, cooperation is coalescing in the Indo-Pacific as 
well. Just last week, President Biden attended the APEC leaders 
virtual retreat where he discussed ways to unleash the economic 
power of the region and to deepen U.S. economic engagement 
throughout the Indo-Pacific, including the recently announced 
Build Back Better World partnership.
    All these developments represent a growing consensus among 
liberal democracies that countering China's authoritarian model 
will require a concerted effort on all our parts. The question 
now is how the United States and Europe can coordinate and 
cooperate to maximize the impact of their policies together in 
the Indo-Pacific region.
    To answer this critical question, my colleagues and I have 
invited a group of incredibly knowledgeable experts with 
diverse ranges of professional experiences. They include 
Heather Conley and Matthew Goodman, both senior vice presidents 
at the Center for Strategic and International Studies; the 
Mercator Institute for China Studies' head of China Research 
Matt Ferchen; and the Hudson Institute's Peter Rough. As 
longstanding experts in the field, you will be able to give us 
concrete recommendations on how the U.S. and EU can bolster 
cooperation in areas such as infrastructure development, 
security, and economic strategy, and we thank you all for being 
here today.
    Without a doubt, China presents a fundamental challenge on 
multiple fronts, but I am confident that working together we 
are more than up to the task. History tells us that democracies 
are strongest when united and they are the weakest when they 
are divided. Countering China and developing a cohesive 
strategy in the Indo-Pacific are bipartisan concerns here in 
the U.S. and in Europe, and I hope we can use today's hearing 
to think about how we can bring together our country's policy 
and present a united front.
    I look forward to the testimony and to a productive 
discussion with all of you, and I turn now to Ranking Member 
Mr. Fitzpatrick for his opening statement.
    Mr. Fitzpatrick. Thank you, Chairman Keating, also Chairman 
Bera, Ranking Member Chabot, for holding this hearing today, 
and to our panel of witnesses for being here.
    Forging a united coalition with our democratic allies and 
partners to confront the autocrats in Moscow and in Beijing is 
a national security imperative. Both regimes have engaged in 
relentless attacks on the rules-based international order, our 
values, and our institutions. And to deter aggression from the 
Taiwan Strait to Ukraine's shared border with Russia, the 
United States will need to enlist the support of our allies. 
Only by rallying the transatlantic partnership can we ensure 
that our democracies win out in today's great power 
competition.
    So today, we will focus on how to build transatlantic unity 
to counter the greatest threat of our time, the Chinese 
Communist Party. I was pleased to see the emphasis that the 
President put on this goal during his recent visit to Europe; 
however, that strong rhetoric that resulted from the world's 
leaders meeting at the G7, NATO, and the U.S.-EU summit 
demonstrated a historic level of convergence, yet the 
Administration's work is not even close to being done.
    Now it must ensure that these words and sentiments are 
followed up with strong action. We must begin by acknowledging 
the strength in the transatlantic relationship. For decades, 
our European allies have been our closest partners in 
addressing shared challenges across the globe. The NATO 
alliance in particular has been the cornerstone of an 
unprecedented period of peace and prosperity, and I was 
encouraged that the final communication of the NATO summit this 
past June identified the Chinese Communist Party as posing 
``systemic challenges'' to Euro-Atlantic security, and it 
asserted that China's--and this is a quote--``coercive policies 
stand in contrast with the fundamental values enshrined in 
NATO's founding treaty.''
    This recognition now requires every ally to assume greater 
responsibility for our collective security and resilience and, 
as such, the Administration must be willing to insist that our 
allies across the Atlantic meet the defense spending pledge 
agreed to at the 2014 Wales Summit, ensure the security of 
their telecommunications networks, the security of their ports 
and other critical infrastructure, and perhaps most 
significantly address supply chain vulnerabilities.
    We must secure sectors from fundamental and emerging 
technologies to include PPE, pharmaceutical manufacturing, and 
perhaps most importantly, semiconductors. And I also hope that 
the Administration will continue to robustly support the Three 
Seas Initiative.
    Following Lithuania's decision to exit the CCP's 17+1 
initiative, the Administration now has a window of opportunity 
that it must take advantage of to provide key Central and 
Eastern European allies an alternative to the PRC's financing 
and trade through their Belt and Road Initiative. We must fight 
back against the CCP's attempts to divide Europe and sow 
discord in the transatlantic alliance at every turn.
    The U.S., Europe, and the free world also share the 
collective goal of eradicating forced labor around the globe, 
and yet China continues to sponsor such activities in various 
regions. As expressed by this committee earlier this year 
through House Resolution 317, the CCP has committed crimes 
against humanity in genocide against the Uyghurs. We must not 
be afraid to name, shame, and sanction any entity that engages 
with any supply chain compromised by forced labor and genocide. 
Moreover, despite the growing Chinese presence in Europe and 
U.S. markets, reciprocal access has not been granted in Chinese 
markets.
    The CCP has blocked foreign investment in infrastructure, 
technology, and the financial services industries while 
increasing activity in these sectors abroad. While the EU-China 
Comprehensive Agreement on Investment seeks to address these 
issues along with the CCP's forced labor practices, it falls 
exceedingly short and I hope that the European parliament 
continues to block the agreement's ratification; that the 
remaining advocates in Europe who believe economic engagement 
with the PRC can transform into a responsible stakeholder that 
they will realize that this assumption is not only flawed but 
it is dangerous. We must remember that China's intent is not to 
sow balanced trade relationships across Europe, rather, it is 
to make the Western world into mere consumers.
    And I am hopeful that the establishment of the U.S.-EU 
Trade and Technology Council, if used effectively, can provide 
a needed venue through which to address the points of friction 
in the transatlantic relationship that have impeded building a 
united coalition against the Chinese Communist Party. However, 
unless Europe is willing to cease targeting U.S. technology 
companies and be more clear-eyed about the threat posed by the 
Chinese Communist Party's unfair and illegal economic practices 
and its digital authoritarianism, this Council could end up 
being nothing more than talking shop that achieves little.
    It is my hope that our witnesses today can address what 
more can be done to transform the strong rhetoric on the threat 
posed by the CCP in a necessary and united action. The time is 
now to build that unified front.
    Mr. Chairman, I yield back.
    Mr. Bera. Thank you, Mr. Fitzpatrick. And again, I would 
like to add my thanks to the witnesses to what Mr. Keating had 
mentioned and welcome Mr. Matthew Goodman from CSIS as well as 
Heather Conley from CSIS, Dr. Matt Ferchen from the Mercator 
Institute, and Mr. Peter Rough from the Hudson Institute. I 
want to thank all of you for participating in today's hearing.
    I will now recognize each witness for 5 minutes and, 
without objection, your prepared statements will be made part 
of the record. And again, my staff has informed me that Mr. 
Goodman has a hard stop at 4 p.m. this afternoon so we will 
keep that in mind. And with that, Mr. Goodman, let me call you 
for 5 minutes of your testimony.

  STATEMENT OF MR. MATTHEW GOODMAN, SENIOR VICE PRESIDENT FOR 
   ECONOMICS, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Goodman. Thank you, Mr. Chairman, and thanks to you and 
Chairman Keating and the ranking members for inviting me here 
today for this opportunity. And I apologize about that 4 p.m. 
hard stop, but just unavoidable I am afraid.
    In my written statement for the record, I offered more 
detailed thoughts on U.S.-EU cooperation on China and the Indo-
Pacific. Here, I just want to make one basic point which is 
that the United States needs a credible and affirmative 
economic strategy in the Indo-Pacific region. I say that for 
three reasons.
    First of all, because that is where the money is, as Willie 
Sutton might have said. Second, because we have critical 
strategic interests in the Indo-Pacific that our military 
presence alone cannot address. It needs to be complemented with 
a long-term economic commitment to the region. And third, 
because it is in the Indo-Pacific that economic rules and norms 
are most fiercely contested and where we have to up our game.
    It is on this third issue that I think Europe's perspective 
on the region has shifted most. Increasingly, Europeans are 
seeing the Indo-Pacific not just as a place of economic 
opportunity, but as a theater of what the European Commission 
itself has called systemic rivalry. Americans and Europeans do 
not agree on everything, but there is a growing convergence of 
views on the shared interests and values we have at stake in 
the Indo-Pacific.
    The coordinated statements yesterday on the cyber hacking 
by China is an example of some of this convergence, I believe. 
It was also visible on President Biden's recent trip to Europe 
both in the G7 Summit in Cornwall and in the NATO and U.S.-EU 
summits.
    Let me just single out two promising areas of cooperation 
from the long list of important issues discussed at those 
summits. First, the establishment of U.S.-EU Trade and 
Technology Council provides an important platform to align 
transatlantic views and policies on protecting and promoting 
critical technologies, supply chains and, importantly, on data 
governance. The rules around data in particular, data flows and 
privacy and security of data are critical and the U.S. and EU 
need to find common ground in this area and then align with 
partners in the Indo-Pacific.
    A second promising area of cooperation from the Biden trip 
was infrastructure as has been mentioned. As you know, G7 
leaders agreed to launch a new Build Back Better World or B3W 
initiative. In essence, B3W is about offering a high standard, 
transparent alternative to China's Belt and Road Initiative in 
meeting the 40 trillion dollars-plus of needed infrastructure 
in the developing world.
    The key to this initiative lies in mobilizing the 100 
trillion dollars-plus of pension and insurance funds and other 
private capital in G7 countries to invest in infrastructure 
projects around the world. But infrastructure is a difficult 
business even here in the United States, or so I am told, and 
governments are going to have to put skin in the game if they 
want to pull private capital in.
    Three specific areas where government resources could be 
usefully directed: First, project preparation facilities 
offered by multilateral development banks, the EBRD. The 
European bank has a great program, for example, in this area in 
project preparation, but also bilateral agencies like the USTDA 
does this as well. This is important to developing a pipeline 
of so-called bankable projects that private investors will want 
to put their money in.
    A second area is first loss guarantees and insurance 
programs offered by MDBs and the U.S. Development Finance 
Corporation to compensate investors if losses exceed a certain 
level. Third, is capacity building in recipient countries. In 
my written statement, I mention the promising initiative 
launched by the Trump administration called the Transaction 
Advisory Fund, under which we drop lawyers and aid officials 
into countries to help them negotiate contracts. This is a 
great idea. The amounts of public money to do all these things 
are not huge, certainly not by comparison with China's spending 
on Belt and Road or with the potential U.S. private capital 
that could be unleashed.
    Let me conclude by going back to my first point about a 
credible economic strategy in the Indo-Pacific. To me, 
credibility depends both on what we have to offer and how we go 
about offering it. Honestly, the United States has been on the 
back foot in the Indo-Pacific since we withdrew from the Trans-
Pacific Partnership in 2017. First best, in my view, would be 
to get back to something like TPP. But if we are not going to 
do that we need an array of economic policy offerings in 
infrastructure, in clean energy, in women's economic 
empowerment, or other issues that resonate in the region.
    As for the how, two points here. First, we need to get some 
things going quickly to demonstrate our credibility, whether 
pilot infrastructure projects under B3W or docking onto the 
data governance work that is already underway in the Indo-
Pacific, as I suggested in a recent piece that I wrote. The 
other point about the how is that we need to work with allies 
and partners on all of this. The issues are too big and the 
competition too great to go it alone.
    Working with our European partners is a great place to 
start, which is why I welcome the subject of this hearing. 
Thank you for your attention and I look forward to the 
discussion.
    [The prepared statement of Mr. Goodman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

       
    Mr. Bera. Great. Thank you, Mr. Goodman.
    Let me now go to Dr. Matt Ferchen for your testimony.

 STATEMENT OF DR. MATT FERCHEN, HEAD OF GLOBAL CHINA RESEARCH, 
              MERCATOR INSTITUTE FOR CHINA STUDIES

    Dr. Ferchen. All right. Thank you to Chairs Bera and 
Keating, Ranking Members Chabot and Fitzpatrick, and to the 
distinguished members of both subcommittees for having me here 
today for this important discussion. My comments today will 
focus on growing interest in Europe and the Indo-Pacific 
region, how emerging European Indo-Pacific strategy is a factor 
into Europe-China relations more generally, and what this all 
means for U.S.-Europe cooperation on China and in the Indo-
Pacific region.
    First, a few words of background on rising European 
interest in the Indo-Pacific. Beginning in 2019, a number of 
European countries began to issue strategy documents on the 
importance of the Indo-Pacific. France was the first to issue 
such a document in 2019 and was then followed by Germany and 
the Netherlands in 2020.
    Not to be outdone, post-Brexit U.K., just this March, 
announced its commitment to a revitalized role in the Indo-
Pacific, declaring itself the best European partner for the 
region on trade, security, and values. Back in the EU, the 
French, German, and Dutch Indo-Pacific policy documents all 
argued for the importance of a coordinated EU-level, Indo-
Pacific strategy. This push resulted with the European Council 
in April of this year issuing a draft EU strategy for 
cooperation in the Indo-Pacific.
    To give you an idea of the aim of the proposed strategy, it 
begins by stating, ``The EU should reinforce its strategic 
focus, presence, and actions in the Indo-Pacific with the aim 
of contributing to the stability, security, prosperity, and 
sustainable development of the region based on the promotion of 
democracy, rule of law, human rights, and international law.''
    This April policy document does not yet represent the 
conclusive EU strategy for the Indo-Pacific and EU officials 
will potentially finalize their approach this September, but 
the broad outlines are now in place. How does this renewed 
European emphasis on the Indo-Pacific fit into the broader 
Europe-China relationship and what is the significance for 
U.S.-European cooperation on China and in the Indo-Pacific?
    To answer the first question, growing European emphasis in 
the Indo-Pacific takes place against the background of a 
broader rebalancing of Europe-China relations. Since at least 
2016, the EU and member EU States have stressed the need to 
balance the benefits of economic engagement with China against 
the risks and challenges posed by China's authoritarian 
trajectory at home and abroad. The result was the EU's 2019 
three-part formulation of China as a partner, competitor and 
systemic rival, a balance that also affects European 
calculations in the Indo-Pacific.
    On the other hand, as the EU and different countries in 
Europe seek to strike a balance in their relations with China, 
a focus on the Indo-Pacific underscores the importance of the 
region beyond just China. For example, European Indo-Pacific 
strategies stress the economic vitality of ASEAN and of EU-
Southeast Asia relations. Japan, Korea, and Taiwan also feature 
prominently in European discussions about options for enhanced 
supply chain resilience.
    With an eye toward China, there is also a strong emphasis 
on working with like-minded partners in the Indo-Pacific to 
strengthen democratic governance, the rule of law, and defense 
of human rights. On the other hand, while China is clearly the 
elephant in the room in terms of European approaches to the 
Indo-Pacific, the EU and individual European countries have 
emphasized that their approach to the region is inclusive 
rather than exclusive, including openness to cooperation with 
China on certain issues such as climate.
    Further, the EU's Indo-Pacific framework contrasts the need 
for cooperation in the Indo-Pacific against concerns about 
geopolitical competition in the region including U.S.-China 
rivalry that threatens to undermine regional security and 
stability.
    With all this in mind, I will conclude with a few 
recommendations about areas of U.S.-European cooperation in the 
Indo-Pacific and also a caveat about potential friction points. 
Issues with the most potential for cooperation include the 
following: First, given already increased transatlantic 
coordination on human rights and values, including with respect 
to Xinjiang and Hong Kong, a joint U.S.-European focus on the 
Indo-Pacific could also pave the way for greater coordination 
on the ongoing political and humanitarian crisis in Myanmar, 
for example.
    Second, in terms of Indo-Pacific regional stability and 
security, while the U.K. and France are the two European 
countries most likely to commit to NATO and other traditional 
security cooperation in the Indo-Pacific, the EU and countries 
like the Netherlands are keen to work with the U.S. and other 
partners to strengthen maritime rule of law, for example, as a 
key pillar in the maintenance of regional stability.
    Third, there is a growing emphasis on the need for more 
coordination with the U.S. and other countries in the Indo-
Pacific on enhanced supply chain resilience. Last, but 
definitely not least, in the wake of the G7 summit and the 
proposed Build Back Better World agenda, there is momentum for 
enhanced U.S.-European cooperation on infrastructure, 
financing, and construction in the Indo-Pacific, including in 
the areas of energy and digital infrastructure.
    Let me close on a more sobering note about the most 
important potential stumbling block in U.S.-European 
collaboration in the Indo-Pacific. Any effort by the U.S. to 
explicitly frame cooperation with European partners in the 
Indo-Pacific as part of an anti-China coalition will likely 
receive a frosty response in Europe. Effective U.S.-European 
cooperation in the Indo-Pacific and on China require deft 
diplomacy and, above all, a solid understanding of complex 
realities within the Indo-Pacific region itself.
    Thank you for your time and I look forward to our 
discussion.
    [The prepared statement of Dr. Ferchen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Mr. Bera. Thank you, Dr. Ferchen.
    Let me now call on Ms. Conley for her testimony.

  STATEMENT OF MS. HEATHER CONLEY, SENIOR VICE PRESIDENT FOR 
EUROPE, EURASIA, AND THE ARCTIC, DIRECTOR, EUROPE, RUSSIA, AND 
EURASIA PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Ms. Conley. Chairman Bera, Chairman Keating, Ranking Member 
Chabot and Fitzpatrick, thank you so much, as well as the 
distinguished members of both subcommittees, for not only the 
opportunity to speak before you this afternoon, but holding 
this as a joint committee hearing. We, bureaucratically, all 
too often silo our regional expertise and, unfortunately, our 
strategic competitors take full advantage of that.
    Our Asian experts need greater understanding about European 
political and economic dynamics, and Europeanists need a deeper 
understanding of China's internal and external policies, so 
thank you so much for leading by example and I hope you will 
hold more types of these joint committee hearings.
    Very briefly, I would just like to highlight four strategic 
and security points gleaned from my written statement. First, 
we have a unique opportunity to strategically reposition the 
Atlantic world to meet the China challenge but our allies 
cannot be viewed as burdens to bear, but as the unique 
strategic assets that they present to the United States. But 
harnessing the strategic asset is not going to be easy and, 
most importantly, we cannot conduct transatlantic business as 
usual.
    And I think Ranking Member Fitzpatrick noted that, for 
example, the Trade and Technology Council cannot be a talking 
shop. We have to move policies forward. The U.S. cannot inform 
allies of decisions taken under the guise of consultations. We 
actually have to consult with them. Transatlantic problems 
cannot--must be solved in a timely way. We cannot allow 
problems like the Airbus-Boeing dispute to go on for 17 years. 
We have to address them immediately.
    Tough allied love must be administered by the U.S. from 
time to time to our allies. We shouldn't shy away from making 
tough and difficult points. And, finally, the U.S. must deeply 
invest, diplomatically and economically, in Europe, because a 
weaker Europe will be much more susceptible to Chinese and 
Russian influence and unable to support the U.S. in its policy 
objectives.
    We really have a very unique moment. The United States in 
our National Security Strategy and Global Posture Review, 
national defense strategies, NATO's updated Strategic Concept, 
and the European Union's Strategic Compass, all of these 
strategies must align vis-a-vis China. But again, let's be very 
clear. This is going to be a very difficult task, and in some 
ways, yesterday's unified statements between the United States, 
NATO, and the EU on the Chinese cyber-attack against Microsoft 
Exchange servers is a perfect example of this.
    The U.S. statement was very explicit in attributing the 
attack to Beijing. NATO's statement acknowledged that some 
individual allies had attributed this attack, but were careful 
to note that the organization did not make that attribution. 
And, of course, the EU statement was even more carefully 
crafted to note that malicious actors were hacker groups that 
happened to be conducting those attacks from the territory of 
China. This is not to criticize the importance of yesterday's 
unified statement, but it does underscore how painful and slow 
this process is going to be to reposition our allies for a 
unified approach toward China.
    My second point is that the U.S. must be very realistic 
about what and where our European allies can help deliver, 
particularly in the security realm related to China. Our NATO 
allies can deliver greater security presence in the Indo-
Pacific, particularly the United Kingdom and France. In fact, 
today's announcement that the United Kingdom will permanently 
deploy two Royal Navy offshore patrol vessels in the Indo-
Pacific coupled with its inaugural deployment of HMS Queen 
Elizabeth Carrier Strike Group in the Indo-Pacific this fall 
are really important examples of that contribution.
    Yesterday's announcement by France that it was facilitating 
a South Pacific coast guard network against Chinese illegal 
fishing is another example of important allied contributions. 
NATO allies also contribute to the annual RIMPAC exercises. 
Again, these are all very important demonstrations of allied 
commitment to greater security in the Indo-Pacific.
    But I believe it would be an error to push European allies 
to shift their limited military capability too much to the 
Indo-Pacific, rather, we need to encourage our allies to 
contribute to press with speed at increasing their readiness 
and defense capabilities in the Euro-Atlantic area with some 
military contributions toward the Indo-Pacific. But, equally, 
our European allies must concentrate on Chinese presence in 
Europe today and its security implications, be that hard or 
digital infrastructure as well as technology acquisition or 
theft.
    There is important progress happening in Europe, but it has 
to go more quickly and the U.S. needs to stand shoulder-to-
shoulder with Europe to ensure that Europe is safe from Chinese 
malign influence.
    My third point, and this is to reiterate what Matt Goodman 
noted, the Atlantic community must succeed in the innovation 
and digital competitiveness race. Again, we cannot have 
business as usual. We have to work more closely with Europe to 
ensure that it does not miss the next decade of technological 
advancement, and this is where we are struggling. We need a new 
strategic approach to make sure that Europe remains digitally 
competitive and can made a contribution to emerging 
technologies.
    Finally, the thing that I think is most missing in our 
thought process is that the U.S. and our European allies must 
be able to simultaneously manage the Russia and China challenge 
set and prepare for more Sino-Russian dynamic alignment between 
our two near peer military competitors. This is not the cold 
war when all geostrategic focus and attention could be devoted 
to the Soviet Union and the global spread of communism. We must 
prepare for both strategic competitors to engage in 
simultaneous and destabilizing behavior against the West.
    This alignment will stress-test allied military, 
diplomatic, and economic responses and suggests that more joint 
hearings of this nature must be held to understand how this 
Sino-Russian alignment can be used against the West. Thank you 
again, and I look forward to your questions.
    [The prepared statement of Ms. Conley follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Bera. Thank you. And let me go ahead and call on Mr. 
Rough for his testimony.

 STATEMENT OF MR. PETER ROUGH, SENIOR FELLOW, HUDSON INSTITUTE

    Mr. Rough. Thank you very much, Chairman Bera and Keating, 
Ranking Members Chabot and Fitzpatrick, distinguished members 
of the subcommittees, thank you all for the opportunity to 
appear before you today. Mr. Chairman, I would like to 
supplement my written testimony with just a few additional 
remarks in the time you have granted me.
    We meet 6 months almost to the hour that President Biden 
took the oath of office as the 46th President of the United 
States. From his first days in office, the President, who has 
long enjoyed a reputation as an Atlanticist, has prosecuted a 
full-fledged charm offensive toward Europe. Under the mantra of 
Build Back Better, the Biden Administration has showered Europe 
with a bevy of diplomatic initiatives and coordination.
    In the process, however, the Biden team must also guard 
against a conceptual mistake. Europe has interpreted the 
President's early embrace to mean that Washington's highest 
priority is transatlantic harmony. This perception is 
especially strong in Brussels and Berlin, the two partners the 
Biden Administration has courted most assiduously. The result, 
that neither feels compelled to move significantly beyond their 
current policy preferences. The risk is that transatlantic 
policymaking will be defined by the lowest common denominator 
of agreement as it stands today, a landing zone which may be 
too modest to tackle the urgent challenges we face.
    The recent experience with the Nord Stream 2 pipeline is 
merely a harbinger. It is an open secret in Berlin that the 
Biden Administration is unwilling to risk its reset with 
Germany by mobilizing against the project. A similar dynamic 
may undercut the scope of U.S.-European cooperation on the 
subject of our hearing today, the People's Republic of China.
    That we need an ambitious agenda is indisputable. The 
challenge of our time is to defend free and open societies from 
malicious actors in an era of globalization and by far the most 
formidable of these threats is the PRC. China is moving 
aggressively to assert dominance of the international system. 
In particular, it seeks to master the critical technologies 
that will determine the future balance of power, a goal it 
pursues through theft of intellectual property on a mass scale, 
an unprecedented scale, in defiance of global trading rules.
    Six months into the Biden Administration and the U.S. has 
inaugurated working groups under the newly established Trade 
and Technology Council. I, like my fellow witnesses and as 
Ranking Member Fitzpatrick noted, welcome the so-called TTC as 
a forum for broad-based discussion. But the U.S. must 
accelerate and intensify its work by offering concrete 
proposals. U.S. foreign policy is most effective when it drops 
a firm anchor that pulls partners and allies in its direction.
    Far from alienating our allies, such leadership drives 
discussions forward and expands the possibilities for 
cooperation. In that sense, in whatever disagreements may arise 
with Europe, the U.S. should not underestimate its own power of 
persuasion in putting forward specific goals. The Clean Network 
alliance of recent years serves as a great example of this 
principle.
    Today, in the area of export controls, for example, the 
U.S. should consider proposing a robust, multilateral export 
mechanism modeled after the cold war era Coordinating Committee 
for Multilateral Export Controls. This is an ambitious 
objective, but it should be an American priority given the 
speed with which China is seeking out Western technologies.
    Of course, China has made clear that it will retaliate 
against any transatlantic effort to strengthen export controls 
or for that matter tighten investment screening and combat mass 
cyber theft. To cushion the blow of retaliation, it is 
important that the U.S. forge as large a zone of free and 
independent countries that are aligned on China policy as 
possible. In that vein, the Biden Administration must not lose 
sight of the Europe that exists beyond Brussels and Berlin.
    Just recently, for example, the Polish Foreign Minister 
registered his disappointment over discovering from the media 
that the Biden Administration had waived Nord Stream 2 
sanctions, or select Nord Stream 2 sanctions. To counteract the 
damage, the Three Seas Initiative is a worthy project that will 
strengthen the continent's resilience also against China. It 
deserves the continued support of Congress and the 
Administration.
    American leadership of the transatlantic alliance, 
especially if linked to that of our Asian allies--and so I echo 
Heather Conley's point that this subcommittee joint hearing is 
really an excellent format--really unlocks a range of 
possibilities and strengthens our position toward China. By 
contrast, an uninspired agenda that focuses on process as 
Europe hedges toward China will vastly diminish our position in 
the competition over the future world order. To avoid that 
scenario, it is time to turn our newfound harmony into tangible 
outcomes. Thank you very much.
    [The prepared statement of Mr. Rough follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

       
    Mr. Bera. Thank you for your testimony. I will now 
recognize members for 5 minutes each, pursuant to House rules. 
All time yielded is for the purpose of questioning our 
witnesses. Because of the full format of this hearing, I will 
recognize members by committee seniority alternating between 
Democrats and Republicans. If you miss your turn, please let 
our staff know and we will circle back to you. If you seek 
recognition, you must unmute your microphone and address the 
chair verbally. I will start by recognizing myself.
    First off, to the witnesses, thank you for recognizing the 
importance of bringing both the Subcommittee on Europe and 
Subcommittee on Asia together. I think it does really underline 
that in the 20th century we had a transatlantic strategy, we 
had a transpacific strategy, but one thing we did not do quite 
effectively was lay out a strategy to bring both together.
    And often the Chinese will characterize this as, well, this 
is an anti-China strategy and I know from my perspective, I 
actually see this as an affirmative strategy which affirms, as 
I said before, the values that we believe in of free market 
competition, a rules-based order, protection of intellectual 
property.
    Competition is fine and none of us fears competition with 
China, but we just see the direction China is going under Xi 
Jinping, so I think we have to present an affirmative set of 
values again of human dignity and human rights. And I think if 
we do that we actually present a framework that for the 
countries in the Indo-Pacific, they are not choosing a positive 
or anti-China strategy, they are choosing a strategy based on 
the values that countries like Korea some of the countries in 
the ASEAN block really value.
    So I really do think it is imperative for us to present an 
alternate strategy.
    Mr. Goodman, you presented four areas where you think there 
is cooperation. I am going to touch on one of them which was 
kind of outlined in the Build Back Better World initiative, and 
that is the infrastructure financing component. And I think if 
I heard the number correctly, you said there is about a hundred 
trillion dollars of pension funding that could be leveraged to 
help us finance international projects which would far surpass 
what the Chinese are putting out there.
    What are the barriers and things that we would have to 
address if we wanted to unlock some of the potential of U.S. 
pension funds or even European pension funds to be able to 
safely finance some of these projects?
    Mr. Goodman. Thank you, Mr. Chairman, great question. It is 
really a critical one because our whole sort of model and 
offering depends on the ability to mobilize this private 
capital. It is easily over a hundred trillion dollars if you 
count all pension funds, insurance funds, long-term funding, or 
funds that have long-term liabilities they have to pay out over 
a long period of time.
    They are looking for long-term assets like infrastructure 
to invest in, so in principle it is a great opportunity. The 
problem is again, even here in the U.S. or the advanced world, 
infrastructure is a very difficult business. It takes longer, 
costs more, there is frankly, even corruption and other 
problems in the advanced world. You imagine in a lot of the 
developing world, you have all those problems, plus all kinds 
of legal questions and environmental and social challenges, and 
there are just not enough clearly identifiable opportunities 
and so-called bankable projects.
    That is a term that has become kind of a cliche, but it is 
an important term in the sense of there need to be projects out 
there that private capital wants to go into, so I think that is 
why I think project preparation, trying to identify potential 
projects and help lay the groundwork is a really good place to 
start. That does require some money. Not a lot, but we need to 
do that through our own bilateral mechanisms like the DFC, the 
USTDA, and then also through multilateral development banks. 
And then as I say, guarantees other sort of risk mitigants that 
make private capital feel that there is government skin in the 
game and that they won't take all the losses if a project 
doesn't work out is important.
    And as I say, this critical issue of capacity building, 
which is the last point I will make, which feeds back to your 
point about what we are offering that is appealing, I really 
think I was in a Southeast Asian country a couple of years ago 
and I met with the sort of senior person in charge of their 
kind of development and internal inbound investment strategy. 
And we talked quite frankly about Chinese offerings and Belt 
and Road and other ways, and this person said, ``Look, we do 
not want that stuff. We know what it comes with, but you guys 
aren't offering anything. You know, if you came forward with 
some actual money, but also the capacity to help us build 
better projects with the rule of law, with good support 
mechanisms around the infrastructure, then we will buy American 
stuff any day.''
    So I think that is the key. It does require putting some 
money on the table.
    Mr. Bera. Great. Thank you for that answer. So let me go 
ahead and recognize the ranking member of the Asia 
Subcommittee, Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    Mr. Rough, I will go to you first, if I can. The Biden 
administration has prioritized revitalizing the transatlantic 
alliance and reassuring Europe that as they like to say, 
``America is back.'' My concern is that this is just talk and 
that it is not clear what we are getting in return, so a couple 
questions.
    First, thus far, what tangible return on these efforts have 
we seen, and do you believe the Biden Administration is 
prepared to have the difficult but necessary conversations 
about, for example, the Europeans actually meeting their 2 
percent obligations under their NATO commitment and increasing 
their military expenditures?
    So we will leave it there at this point. How would you 
respond to those questions?
    Mr. Rough. Well, thank you, Congressman. Let me perhaps 
just begin with the last point on NATO. A third of NATO now 
meets its Wales pledge of spending 2 percent of their GDP on 
defense. France and Norway just crossed that threshold which is 
a welcome development, but more needs to be done. More progress 
needs to be made in this domain and it does connect to the Asia 
Pacific region.
    In the event of combat in Asia Pacific, if there is, for 
example, a war over Taiwan, the real question is whether or not 
the United States Navy at a level of 290 ships or so would be 
able to both supply the Asia Pacific and ferry troops across 
the Atlantic if, simultaneously, there was a crisis of sorts in 
Europe. So this is not a question of American harmony, of 
American willpower, it is a real question of American 
capabilities and whether or not they are not strained. And so 
Europe has to pick up the slack, and I think urgently making 
that case is hugely important.
    On the subject of transatlantic coordination, I think there 
have been a few positive examples on, for example, Belarus, 
where the United States has worked well with the Europeans on 
coordinating statements. There have been a bevy of releases 
including the Microsoft hack that was just raised. But on the 
major fundamental questions that are still outstanding on the 
big transatlantic sort of existential questions, we still need 
progress and we will see what the Administration produces in 
the coming months and years.
    Mr. Chabot. Thank you. I will stick with you, Mr. Rough. I 
am one of the founders of the congressional Taiwan Caucus and 
one of the co-chairs, currently, of it and so I would like to 
ask you about Europe's position on Taiwan. In a first, this 
year, the G7 communique underscored ``the importance of peace 
and stability across the Taiwan Strait.''
    In your opinion, what more should the transatlantic 
alliance do to counter the PRC's growing diplomatic and 
military pressure against Taiwan?
    Mr. Rough. Well, Heather Conley has already outlined a few 
of the deployments that are ongoing, which I do think are 
helpful. Beyond that I think developing a common strategic 
picture is useful, and the U.S. can do that by facilitating 
connections between our European allies and those frontline 
States who have really felt the brunt of Chinese aggression and 
ruthlessness of late.
    The United Kingdom, for example, in the wake of the 
aggressive erasure of freedom in Hong Kong and subsequently of 
the moves against Australia on the trade front, has toughened 
its line, given its natural and historic links to both of those 
areas, on China. And I think the more that we can connect up on 
the ministerial level, for example, of 2+2 of defense and 
foreign ministers of our Asian allies, Australia, and Japan, in 
particular, and our European partners, that will be helpful.
    But principally, this is really an American sphere of 
military action and what I would like to see is for the 
Europeans to alleviate American pressure in the Asia Pacific by 
having a solid presence in the Mediterranean and the North 
Atlantic perhaps east of Suez and the North Indian Ocean.
    Mr. Chabot. Thank you. And let me squeeze one more 
question. The previous administration's efforts to counter the 
Chinese telecommunications firm Huawei including through the 
Clean Network initiative were quite successful. Do you assess 
that the Biden Administration is building on this progress to 
ensure the safety of telecommunications networks in Europe?
    Mr. Rough. I think that is an open question. Clearly, there 
is bipartisan agreement on the importance of keeping 5G clean, 
on keeping next generation telecoms amongst our allies clean, 
and so in that sense I would say yes. Beyond that though, I 
think we really need to push for and address how we can 
extricate ourselves from supply vulnerabilities by providing 
alternatives.
    And here there is questions about where strategy is going. 
Are we and the European separately going to pursue a form of 
industrial strategy, for example, on next generation 
technologies or can we work together as we did in decades past 
through basic research funding, perhaps relaxing some 
competition rules and thereby generating some consortiums of 
transatlantic private sector companies to push forward the 
frontiers of semiconductors, for example, and then it will be 
easier for our allies to feel less the sway or less the 
pressure of the Chinese.
    So I would say the jury is still out but I am hopeful.
    Mr. Chabot. Thank you. My time has expired, Mr. Chairman. I 
yield back.
    Mr. Bera. Great. Thank you, Mr. Chabot. Let me go and 
recognize the chairman of the Europe Subcommittee, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. I want to followup on 
Ms. Conley's testimony where she cited the China-Russia 
relationship. Surprising to many people over the last few 
years, myself included, the level of cooperation with China and 
Russia really reaching unprecedented highs, President Xi 
Jinping and Putin have both praised the comprehensive 
partnership and strategic cooperation between the two 
countries, and the leaders of both governments have recently 
underscored the steady development of these ties, taking them 
further, and there are many fronts.
    If you could, first, Ms. Conley, and then anyone else who 
might want to jump in, just detail some of the key areas of 
cooperation, strategically, and where we should be the most 
concerned. No. 2, let's still remember there are differences, 
maybe you want to cite, if you could, some of those differences 
and how it could be problematic for the two countries going 
forward. And three, actually citing a great example of how to 
counter this, the programs like the Three Seas Initiative where 
it has already launched the response to Chinese economic 
influence in Europe, how do initiatives like the Three Seas 
play into the Biden Administration's revitalization approach to 
transatlantic response to China and how can these programs, 
programs like the Three Seas Initiative, those types of 
programs address the Russian-Sino cooperative influence?
    Ms. Conley. Chairman Keating, thank you so much for that 
question. We have actually been very focused on understanding 
Sino-Russian military cooperation so I will speak to that. But 
I will say, I think the analytical community had been a little 
lazy, to be honest with you. We kept calling this dynamic 
alignment a marriage of convenience, that this was something 
that we historically did not see evolving. And I think we have 
to really now begin our assessment with a more enduring 
alignment.
    This is not an alliance, let me be clear, but it is an 
alignment of interest between Moscow and Beijing and, 
increasingly, Moscow is looking toward Beijing for economic 
support whether that is Arctic energy development, whether that 
is looking at technology, surveillance, we are seeing that 
growing economic focus, and then what we are seeing now is a 
more fruitful partnership.
    So for the last several years, beginning back in 2018, the 
Chinese military and Russian military exercise annually in 
Russia's annual military exercises. We have seen naval 
interaction in exercising well before 2015 as far afield as the 
Russian far east, the eastern Mediterranean, and the Baltic 
Sea. We are increasingly seeing arms transfers between Russian 
arm sales to China, but as China is seeking the more 
sophisticated military equipment they are now acquiring greater 
Russian military technology.
    Watching air exercises between Russia and China in the 
Indo-Pacific is another example of this growing flexible 
dynamic militarily, and that is something we really do need to 
understand, particularly in a two-front conflict, if you will. 
So a scenario where Russia begins to exert pressure in northern 
Europe militarily; China simultaneously exerts even more 
pressure on Taiwan in the Taiwan Straits that would pose an 
enormous challenge to our allies, so keeping that focus 
militarily.
    What we are seeing though as Russia and China interact 
globally, so Serbia is a perfect example, even in the Sahel in 
Africa we are seeing compartmentalization, meaning that they do 
stay out of each other's way. But, increasingly, I think that 
is going to be more challenge, particularly as China grows its 
economic role in these countries and Russia is unable to 
maintain a stronger economic relationship. But Russia may have 
different influence touch points, if you will. Will we see some 
friction as Russia is challenged in its traditional clients 
with, because of Chinese largesse. So we are seeing that 
compartmentalization.
    And, finally, sort of thoughts on the Three Seas 
Initiative, and I think this is where quite frankly, whether it 
is Chinese malign economic influence or Russian malign economic 
influence, both thrive on lack of strong institutions, norms, 
transparency, strong voice for civil society and organizations. 
So in some ways, just to hearken back to what a previous panel 
has said, we cannot continually harp that this is an anti-China 
dimension. We have to start talking about these plans as 
strengthening the West, strengthening this Atlantic world, and 
we do that by quality infrastructure that respects 
environmental protections and norms, does not go into the 
pockets of cronies and political parties and leaders, that we 
are showing that quality is so much better than short-fix 
quantity.
    That is a difficult process, but that is where that deep 
diplomatic and economic engagement is vital. Thank you.
    Mr. Keating. Yes, I yield back, Mr. Chairman.
    Mr. Bera. Great. Let me go ahead and recognize my good 
friend from the State of Illinois, Mr. Kinzinger.
    Mr. Kinzinger. Okay, thank you, Mr. Chairman, and thank you 
to all our witnesses for being here. Let's get right to it. 
Question for Mr. Rough and Ms. Conley. As we know, the Biden 
Administration waived congressionally mandated sanctions on the 
Russian malign influence project that we know as Nord Stream 2. 
Let me ask you both and I guess I will start with Mr. Rough, 
first.
    Do you believe that the Administration did this with the 
hopes that Germany--and it was, of course, the main beneficiary 
of a completed pipeline--would cooperate in pushing back 
against the CCP? And if you do believe that, let me ask you if 
we have seen any stronger take by Berlin from that.
    Mr. Rough. I do think that that is part of the calculation. 
The Biden team's thinking, if I could summarize it perhaps in 
somewhat crude terms, if there is a form of almost Kissingerian 
triangulation in Europe, they want to pull the Germans a bit 
away from the French idea of strategic autonomy, and then in 
the broader international arena, pull Europe led by Germany 
away from China.
    And so I do think that that was part of the rationale. I am 
not sure why we had to link China policy to Nord Stream 2 and 
Europe. Those two strike me as unrelated and, quite frankly, 
the Europeans complained about linkage extensively during the 
Trump years, yet here, apparently, we are exercising that.
    We also, I think, had a rather disappointing visit of the 
Chancellor to Washington. There was a lot of talk leading up to 
that. She came, of course, just a few days ago that there would 
be an agreement on Nord Stream 2, some sort of managed process, 
but in the end, nothing was really delivered. And I am not sure 
what the Europeans can deliver on that to assuage, or the 
Germans could deliver to assuage the concern of the Eastern 
Europeans.
    One last point, the transit fees on Nord Stream through 
Ukraine run about 2.5 billion a year. The Three Seas 
Initiative, the major sort of crown jewel funding apparatus for 
that, announced at the Munich Security Conference in February 
2020 is a one billion-dollar American commitment. So you can 
see how there is a bit of a gap between both the ambitions and 
the scope and size of Three Seas, even if it is built out, and 
what just in purely commercial terms the transit fees mean for 
the Ukraine, to say nothing of the geopolitical impact that 
this decision will ultimately have.
    Mr. Kinzinger. Thank you.
    Ms. Conley.
    Ms. Conley. Yes, I believe the Biden Administration is 
certainly prioritizing in the first 6 months healing in our 
allied relationships and, certainly, the German, U.S-German 
relationship was severely damaged over the last 4 years. But as 
I said in my opening statement, we have to be able to apply 
what I call tough allied love, and I believe the Biden 
Administration should have continued to press the German 
Government to make much more significant concessions. They are 
isolated within Europe on Nord Stream 2. Unfortunately, this 
has not stopped them from pursuing this.
    And I agree with Peter that the visit of Chancellor Merkel 
was an opportunity for the German Government to offer 
concessions for a pipeline that clearly the Biden 
Administration has accepted as constructed. I do not think I 
would have given up that easily. I would have fought until the 
very end, and it is not because we want to damage or fray our 
relationships. It is because we believe in this relationship 
and it is so important, we have to continue to fight for it.
    I do not believe it was linked to China or to the 
Comprehensive Agreement on Investment. In some ways, this is 
not really about Russia, per se, this is about Germany and 
German policy and how it is going to approach challenges like 
Russia, like China, and I think we should have fought a little 
harder for more.
    Mr. Kinzinger. I agree. And I think too it is important to 
note that we reversed the decision, which was the right 
decision to reverse it. We reversed the decision to withdraw 
troops and I think that is to an extent a given as well.
    Let me ask you in the minute I have remaining, Mr. Goodman. 
We talk about supply chain vulnerabilities, obviously, that was 
brought to light during the COVID pandemic, and understanding, 
for instance, the threat to cutoff PPE and the real damage that 
could do, how can we be working with the EU to help to counter 
some of those supply chain issues? I know it is only 45 
seconds, but if you want to top-line it that would be great.
    Mr. Goodman. Well, thank you, Mr. Congressman. That is a 
really important set of issues around supply chains that as you 
know the Biden Administration announced this for his hundred-
day review. One of the issues was the pharmaceutical and 
medical area and came up with some ideas for how we can make 
those supply chains more resilient and robust, also 
semiconductors, batteries, and our rare earth minerals.
    All of that is really critically important and we have to 
do it with all of our allies. Europe plays a part in production 
of some of the medical and pharmaceutical products and 
supplies, and I think they need to be very much part of the 
conversation. There is a little bit of a theme or a sense among 
some allies that the U.S. really wants to do all this at home 
and, understandably, we want to do some of it at home, but we 
need to sort of have a bunch of options including production in 
Europe, Japan, other trusted allies, so that is, I think, the 
key here.
    Mr. Kinzinger. Agreed. Thank you. And thanks for the 
witnesses.
    Mr. Bera. Thank you. And let's try to squeeze one last 
round of questions in here and then, unfortunately, votes have 
been called. So let's see if we cannot get my good friend from 
Rhode Island, Mr. Cicilline, in here and then we will recess 
while we go vote.
    Mr. Cicilline. Thank you, Chairman Bera and Chairman 
Keating, for calling this hearing, and thank you to our 
witnesses for joining us today. Once again, the United States 
and its partners and allies in Europe have the opportunity to 
partner to advance the causes of liberty, democracy, and human 
rights and a future dictated not by the long reach of 
authoritarianism. And I think to do that we have to be really 
strategic about our approach to China and the Indo-Pacific 
region, particularly.
    So my first question is for you, Mr. Goodman or Dr. 
Ferchen. We have seen recently a willingness of China to 
increasingly become more adversarial, including in regions 
traditionally outside their sphere of influence including Cuba. 
And my question is, should the U.S. and Europe expect that 
China will become more involved in the regions in which they 
were not normally involved in the past and, if so, how should 
we think about working together to really prepare for that kind 
of involvement?
    Mr. Goodman. Yes. No, that is a difficult question, 
Congressman, because China on the one hand has not shown 
historically, I mean deeply historically, like thousands of 
years, interest in going too far beyond its sort of immediate 
sphere of influence within the sort of greater Asian region. 
Some counter examples, but in large part they have been more 
interested in sort of their position in the Asian Pacific.
    They are, through Belt and Road, through other means in 
supporting Venezuela, Cuba, as you say, they have sort of been 
reaching out. Partly this is because they need resources, so 
Venezuela, I think, was part of that, the Africa play is a lot 
of their need to get access directly to resources as they see 
it. They think that is an important strategic play. The problem 
for them is that really extends their vulnerability, their 
risk, and they do not have, unlike us, they do not have a 
global footprint of bases and allies and military capabilities 
and they have gotten themselves in trouble.
    So there is a bit of a, I think, a shyness too about going 
too far out on a limb there. But they have built a base in 
Djibouti. They are starting to look at extending that 
capability, and I think that is something that we have to be 
very alert to, working with allies to ensure that the countries 
that are being subject to influence have again an alternative 
offering from us that is more appealing than what China is 
offering.
    Mr. Cicilline. Thank you. The Pegasus Project has revealed 
the extent in which leaders from around the world installed 
spying software on the devices of opposition leaders and 
journalists. This includes, allegedly, Prime Minister Orban of 
Hungary.
    And my question is, how does China's use of similar 
technologies influence the global trend of spying on actors 
unfavorable to certain governments and how can the United 
States and Europe partner to push back effectively against the 
global distribution of similar dangerous technologies that 
emerge from the Indo-Pacific region? And I do not know if 
anyone has thoughts on that.
    Ms. Conley. Well, Congressman, I am happy to jump in. I 
think--and I thank you so much for citing the example of 
Hungary where we have this is a NATO and EU member and ally 
that is openly courting Beijing. Huawei has a technology center 
there and, certainly, Mr. Orban has increasingly encouraged 
Chinese investment. This is where both NATO and the EU and the 
U.S. have failed to have a consistent and credible policy to 
make sure that a NATO ally does not continue down this path 
because other allies seeing that that is a free pass may be 
tempted.
    We are seeing particularly in non-EU member Serbia, a 
strong relationship where we have Huawei Safe City pilot 
projects. CSIS has done extensive research of Chinese influence 
in Serbia and across the Western Balkans. This is really 
problematic because they are showcasing and modeling 
technologies of surveillance of opposition in civil society 
which is deeply, deeply troubling. We need a response for that 
and as yet the transatlantic community has not effectively 
responded to that challenge.
    Mr. Cicilline. Thanks. And, quickly, I just want to raise 
the issue of human rights. Obviously, Indo-Pacific region is 
open to tremendous opportunities economically, diplomatically, 
politically but it is also home to a wide variety of human 
rights abuses that are really antithetical to the governance 
models and human rights regimes synonymous with the United 
States and Europe.
    And so how should we think about making investments in this 
region, but also trying to advance the issue of human rights 
and ensure that we are seeing some progress in those key areas 
at the same time we are making these investments? I know that 
is a complicated question, but if anyone has thoughts on that.
    You are going to let my clock run out. Well, give it some 
thought and perhaps you can answer that in writing if you have 
answers, because I do think that is one of the great challenges 
we face.
    Mr. Bera. Great.
    Mr. Cicilline. Thank you. I yield back, Mr. Chairman.
    Mr. Bera. Thank you, Mr. Cicilline.
    And knowing that votes have been called for, I am going to 
go ahead and recess this subcommittee and hopefully the 
witnesses can stay with us. Again, I know we may lose Mr. 
Goodman at 4 o'clock, but if the other witnesses can stay, we 
will reconvene after our third vote and hopefully it will be on 
the shorter end, 45 minutes to maybe an hour.
    So at this time, the subcommittee will recess so that 
members can vote. The hearing will resume immediately following 
the last vote.
    [Whereupon, at 3:20 p.m., the subcommittees recessed, to 
reconvene at 4:31 p.m., the same day.]
    Mr. Bera. The committee will come to order. Again, before I 
call on Mr. Perry as a testimony to the importance of this 
subject but also to the witnesses, as we were on the floor 
voting, both Democratic and Republican members came up and 
talked about how interesting this topic was and how important 
this topic is.
    So it is something that as the two subcommittees work 
together hugely important for us to bring our allies together 
across the transatlantic as we address some of the challenges 
in the transpacific Indo-Pacific region.
    And with that, let me recognize my friend from the great 
State of Pennsylvania, Mr. Perry, for 5 minutes of questioning.
    Mr. Perry. I thank my friend, Mr. Chairman, from the great 
State of California.
    To the witnesses, the threat posed by the People's Republic 
of China represents the foremost existential challenge to the 
United States, Europe, and the rules-based international order. 
But to me, there is a clear lack of consensus on the question, 
and even more so across the Atlantic. To me, it is a sobering 
indication that the CCP's intention to create division among 
Western allies is actually working. China has been able to 
leverage its investment in Europe, including through the Belt 
Road investments in Greece, Serbia, Hungary, and even Italy to 
weaken the resolve of our EU partners.
    The CCP's outside influence in the German economy has 
caused the long-serving Chancellor to take a decidedly soft 
track on China for fear of upsetting bilateral trade and 
investment relations. Notably, Germany is in this position in a 
large part due to the Chancellor's disastrous energy wind rapid 
decarbonization policy. Germany's policies left them wholly 
reliant upon the CCP for the component minerals necessary to 
make solar panels, batteries, and windmills.
    As other nations push forward with this technically 
infeasible net-zero policy being discussed on both sides of the 
Atlantic, they will suffer the same fate. The joint pressure of 
the economic suicide by the U.S.-EU creates an opening for the 
CCP to effectively take control of a critical infrastructure 
and economic markets and force Western leaders to adopt the 
appeasement strategy pursued by Ms. Merkel.
    Recent global summits indicate a shared commitment to 
freedom of navigation operations in the East and South China 
Seas and an acknowledgment toward condemning human rights 
abuses. However, the extent of the U.S.-EU work against China 
remains limited to mostly agreeable initiatives. In many cases, 
I would argue that these summits revealed many divisions 
between our Nation and Europe. For evidence, look no further 
than the fact that the word ``genocide'' was omitted from the 
U.S.-EU joint statement but ``climate change'' was mentioned 
about 20 times.
    To be clear, it is great to be able to work with our EU 
partners on common areas of interest; however, what the CCP 
took away from these summits was not a transatlantic commitment 
to principles undergirding the rules-based international order. 
Instead, the CCP came away with the understanding that the 
current administration and EU leaders will sacrifice principle, 
prosperity, and security in return for false promises of future 
Chinese emissions reductions.
    These summits also provided confirmation that there is an 
utter lack of cooperation in fighting the CCP's outside 
influence in the U.S. and EU capital markets and the economies 
at large. There can be zero hope for success in confronting the 
threat that the CCP poses without a unified effort on both 
sides of the Atlantic, can prevent funneling hundreds of 
billions of dollars into CCP coffers for their military 
modernization efforts and for continued perpetuation of 
genocide against minority populations.
    And with that, Mr. Chairman, I request permission to submit 
for the record, a Prague Security Studies Institute report.
    Mr. Bera. Without objection.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    
    Mr. Perry. Thank you. According to this report, the 
Frankfort Stock Exchange is currently allowing CCP companies 
that engage in intellectual property theft, egregious human 
rights abuses, the manufacturing of advanced weapon systems, 
and the militarization of illegally claimed islands in the 
South China Sea to trade on its exchange. This report indicates 
that this single EU stock exchange hosts at least seven CCP 
companies through primary listing and at least 68 via the 
listing of subsidiary or affiliate.
    This is common practice across Europe and unless we hold 
serious discussions with our EU partners about the need to deny 
malign actors capital market access, there is absolutely no 
anti-China strategy that we can come up with that will achieve 
our political and security objectives. None, whatsoever.
    To combat this critical issue, I will be introducing 
legislation next Thursday that utilizes President Biden's EO 
14032 to support investment sanctions against PLA affiliates as 
well as any CCP company engaging in genocide or other human 
rights abuses. This bill is set for introduction and because 
this is such a critically important issue in our existential 
fight against the CCP, I am actively working to engage with my 
partners on the other side of the aisle to join with me in this 
bill's introduction. It is critically important that our EU 
partners see this as a bipartisan issue here in the United 
States.
    I will close by asking our panelists one question. Do you 
anticipate substantive cooperation between the U.S. and the EU 
on combating China's omnipresence in the U.S. and EU capital 
markets, and maybe what are the barriers to success if you do 
not see us doing that? So that is what I am primarily 
interested in is the capital markets, the EU and the United 
States working collaboratively to limit China. And I would just 
like your opinion on that.
    Mr. Bera. And knowing that the gentleman's time has 
expired, if the panelists could give short, succinct answers, I 
will indulge quick answers. Otherwise, certainly, you can 
submit extensive answers in writing.
    Ms. Conley. Mr. Chairman, I am happy to very quickly answer 
Congressman Perry's question. We are actually developing a 
report that looks at the financial grey zone of which Russia 
and Chinese malign behavior elicit financing corruption, money 
laundering, and misuse of capital markets, is an important part 
of their economic warfare. This is not simply just for China, 
but also Russia.
    And I think what we have seen is the European Union with, 
tomorrow, I believe, coming out with a major anti-money 
laundering directive. The EU understands it has a problem. It 
isn't fast enough in responding to it and, quite frankly, the 
U.S. has a strong leadership role to play here. So your point 
is taken and I think this is a huge area not just for China, 
but also for Russia.
    Mr. Bera. If either one of the other witnesses want to 
respond, otherwise I will move on to the next witness.
    Great. Thank you, Mr. Perry, and your time has expired.
    Let me go and recognize the gentlelady from Nevada and my 
good friend, Ms. Titus.
    Ms. Titus. Thank you very much, Mr. Chairman. It has been a 
very interesting and enlightening testimony. I would ask Ms. 
Conley though to elaborate on her written statement where she 
says there is a greater chance for strategic cooperation of 
military assets between the U.S. and EU nations within the 
Indo-Pacific. You noted that however that even recently there 
has been kind of an aversion of certain types--by certain types 
of European countries to upsetting China.
    So I wonder if, as we shift our position in the region with 
a greater focus on collaboration with Australia, Japan, and 
India, if you see any chance that the Quad and NATO could maybe 
conduct some joint exercises, maybe similar, but on a larger 
scale than the Malabar exercises last year. And if that is not 
possible, what about working in cooperation between those two 
groups on certain missions that NATO is already engaged in like 
counterterrorism, cybersecurity, and ballistic missile defense?
    Ms. Conley. Congresswoman, thank you very much for that 
question. I think you are absolutely seeing an evolution of 
particularly NATO allies separately increasing their force 
posture in the Indo-Pacific. Participating more in exercises 
and exercises are absolutely critical. I think another element 
is NATO is expanding its global partnerships, really 
strengthening its relationship, particularly with Japan, with 
Australia; we are also seeing bilateral efforts, particularly 
the French as well as the British, really strengthening their 
military to military relationships with members of the Quad.
    I do not believe the European Union in its security and 
defense policies will have much of a posture in the Indo-
Pacific. They can, however, again support for coast guard, 
illegal and unregulated fishing, maritime issues, this is where 
we really need the European Union to strengthen their resolve 
on the law of the sea, international maritime norms, and bring 
that unity to bear.
    I do not believe the EU will really have an expression of a 
security posture. It will look much more toward the south, the 
Mediterranean, North Africa, Africa, as its most vital security 
challenge, but I do think NATO allies can and are playing a 
direct role. But again, we need them to concentrate, first and 
foremost, of strengthening the collective defense of the Euro-
Atlantic area and then contributing what they can to the Indo-
Pacific region.
    Ms. Titus. Well, thank you. Thank you very much.
    I would ask you and any of the other members of the panel 
if you could just comment on the fact that we know that China 
is an adversary. We know we have to compete with them. We do 
not want them to necessarily be an enemy, but what are some 
areas that we can carve out where we can perhaps work together 
with some of our allies in specific policy areas, if it is 
climate change or if it is rule of law, whatever?
    Ms. Conley, are you going to start?
    Ms. Conley. Oh, of course. Thank you. I wanted to make sure 
my other panelists had a chance to jump in. Clearly, climate is 
probably the area that is right for collaboration, but again we 
have to demand transparency. I follow very closely the Arctic 
and we have seen, certainly, a significant uptick in Chinese 
scientific activities. As a permanent observer to the Arctic 
Council, in the Arctic, this, of course, this collaboration is 
very welcome. But there has to be transparency of exactly the 
kind of science that China is pursuing, that we make sure that 
we have confidence that it is science that they are pursuing, 
particularly in remote areas.
    But the Chinese share with us very clearly that they are 
deeply affected by climate change. If they are willing to take 
policies and approaches that can reduce the emission of 
greenhouse gases, I think we should welcome that and welcome 
scientific collaboration. But I think it is very challenging to 
see China making meaningful changes to their current economic 
model, so I think we have to be very realistic about what we 
can expect.
    Ms. Titus. Thank you.
    Dr. Ferchen, do you want to weigh in on that?
    Dr. Ferchen. Yes. I would tend to agree with some of this. 
I think there is a lot of emphasis on, in China, these 
commitments, verbally, to greening the Belt and Road, for 
example, and that means reducing coal-fired power plants along 
countries that are a key part of the Belt and Road, for 
example, in Pakistan.
    The real question is, what is an alternative there, and 
this taps into some of Matt Goodman's statements earlier. So 
that is a question of financing and technology and that might 
be an alternative to what China has on offer, but it also may 
be some opportunities for collaboration but it requires 
listening to the demands side especially from countries that 
are right now taking some of those deals that China has on 
offer.
    Ms. Titus. Seems an opportunity for us to do some of that 
climate financing or at least build it into some of our 
development policy.
    Dr. Ferchen. Yes, I would agree.
    Ms. Titus. I yield back, Mr. Chairman.
    Mr. Bera. Thank you, Ms. Titus. Let me recognize the 
gentleman from Florida, Mr. Mast.
    Mr. Mast. Did you recognize me, Mr. Chairman? I did not 
hear you.
    Mr. Bera. I am sorry. Yes, I did recognize you, Mr. Mast.
    Mr. Mast. All right. That is what I thought. It kind of 
broke up for me. And I want to thank our witnesses for their 
testimony. I have enjoyed hearing it as well.
    I was interested by the line of questioning that my 
colleague Ms. Titus asked, and it kind of--my question goes in 
a similar front. You see a lot of reliance by our European 
allies on China. It is increasing on a daily basis. When you 
look at that and you look at China expanding their role 
militarily while they still, largely in many cases, do not even 
function well as a regional military, they are certainly 
expanding the capabilities to function as a global military and 
transoceanic military as well.
    And my question goes to this. When you look at Article 5 of 
NATO that States that an attack on one member of NATO is an 
attack on all of its members, what do you all opine, or if you 
can all opine, on the views among our European allies about how 
strong they consider that Article 5 statute within that today? 
Do you think they are viewing that still quite strongly? And 
then if you felt like opining on it as well, to even go on to 
say as we continue to try to un-bury the origins of COVID-19, 
if that were to be a purposeful leak from a lab if you would 
consider that an attack on NATO members. And whoever wants to 
start on that, it is open.
    Ms. Conley. I am happy to begin. I believe, today, the 
Article 5 commitment is very solid and very strong and it was 
greatly appreciated that President Biden reaffirmed that 
commitment. So I think that we can be very assured. I think the 
challenge as you noted is that the increased definition and 
broadening of risks to transatlantic security, NATO at its most 
recent summit enlarged Article 5 issues to space and to cyber. 
So we are seeing the security aperture widen.
    I couldn't specifically answer if, in fact, the origins of 
COVID-19 are attributed and clear and what that would mean for 
NATO, but I will tell you that because of U.S. leadership we 
have shifted our European allies' views on China and, in fact, 
Chinese behavior has actually facilitated that shift. They 
acknowledge this issue, but they do not see it in the security 
terms that the United States does.
    This is what is going to require long, deep conversations, 
investment, a lot of encouragement, a lot of tough love, a lot 
of pushing European allies in uncomfortable places they do not 
want to be in the middle of the contest between the United 
States and China. But they aren't on the sidelines. They are 
part of the Western community of democracies and we need their 
support in a whole of allied effort against China.
    Mr. Mast. Appreciate your response. Let me see if any of 
the rest of our panel has anything to offer on that. Thank you 
for your thoughtful response.
    Mr. Rough. Sure. I will jump in and say that virtually any 
European diplomat or leader when he speaks to a high-ranking 
official, you hear a pretty strong commitment within NATO to 
Article 5. At the same time, however public opinion within 
Europe, it is rather varied, and I would say that a Latvian or 
a Lithuanian looks at the threat of Russia very different than 
a Portuguese or Spanish citizen who maybe looks more toward the 
Mediterranean and the global south.
    So while there is a very strong leadership support for 
NATO, polling in the U.S., I think, is a little bit more robust 
when it comes to our views of Russia and NATO.
    As for the COVID question, I would say that we are unlikely 
to ever get clarity on that, I think. That is my speculation. 
And so I am not sure we will be able to reach a threshold on 
origins of COVID to where you would be able to have a real, 
kind of strong, kind of European consensus on that issue.
    Mr. Mast. That is a good point.
    Mr. Rough. Well, I think that is just probably the nature 
of this sort of issue at least how the Europeans see it. And 
then one shouldn't forget that NATO has geographic boundaries 
under our Article 6 of the founding treaty, north of the Tropic 
of Cancer. And so at least some of the zones of dispute where 
China is really pushing out aggressively, say, the South China 
Sea and elsewhere, do not follow very specifically within the 
NATO remit.
    A question though, and perhaps this is also somewhat of a 
punt, is how the Europeans would react, because I think 
American expectations would be there in the event of some sort 
of military emergency in the Asia Pacific. They are treaty 
allies of ours, they are not neutral as Heather Conley said, 
and yet that really is a part of the NATO zone.
    Mr. Mast. Well, we have 5 seconds, if Mr. Ferchen wants to 
chime in.
    Dr. Ferchen. Just that I think we need, just need to be 
careful to put too much hope in the idea that sort of a focus 
on China will sort of save NATO. I think Russia is going to be 
a greater focus especially for most in Europe, and I think the 
same can be said for the broader transatlantic relationship. 
For all the cooperation that there can and should be on China 
issues, I think that relationship has to be solid on its own 
terms.
    Mr. Mast. Thank you, all.
    Mr. Bera. Great. Thank you, Mr. Mast.
    And let me now recognize my good friend from the State of 
North Carolina, Ms. Manning.
    Ms. Manning. Thank you, Mr. Chair. I want to thank both of 
our subcommittee chairs and all the witnesses for such an 
interesting hearing.
    I want to focus on one specific industry that has been 
particularly problematic during this pandemic and that is 
semiconductors. My question was going to be for Mr. Goodman, 
but I will welcome an answer from any of you who would like to 
speak on this. Given the importance of semiconductor chips, the 
Biden Administration is working to increase the resiliency of 
U.S. semiconductor supply chains and has reached agreement with 
key allies to cooperate on a broader semiconductor strategy.
    Can you tell us about what kinds of cooperation are already 
underway between the U.S. and Europe on the supply chain 
security and how these initiatives can be further enhanced?
    Ms. Conley, you look like you are ready to answer.
    Ms. Conley. I just have an eager face, I think. Thank you. 
Unfortunately, Matt Goodman had to leave early, but absolutely. 
I mean, I think this is where, certainly, some legislation in 
Congress thinking about a trusted ally approach that we look to 
our allies as important additives to the supply chain. So the 
Dutch, in particular, with important semiconductor facilities, 
that we work with our allies and partners in Asia as well to 
buildup resilience, provide those alternatives, so I think some 
of that good work is underway.
    I apologize for not knowing the specifics of that but that 
is the type of allied approach. It is not so much that it is 
against China, it is strengthening the West, strengthening our 
ability to produce and be autonomous and not rely on any one 
supplier.
    Ms. Manning. So the acquisition of the United Kingdom's 
largest semiconductor chip fabbed by a Chinese-backed company 
has prompted review for national security concerns and has 
there been a broader trend of PRC-backed companies acquiring 
semiconductor companies throughout Europe and, of course, if 
so, what are the implications we should be worrying about?
    Ms. Conley. Well, certainly, there is an uptick in Chinese 
technology acquisition. In fact, my colleague Jim Lewis and I 
just completed a study last fall that looked at Chinese 
technology acquisition patterns, actually, in the Nordic 
States. We did not examine the United Kingdom in that study 
some of it is more difficult to detect. Some of it is coming 
through shell companies. There is certainly lack of clarity of 
origin and source of companies. I think that is part of making 
sure we have strong intelligence in understanding who exactly 
is behind these acquisitions.
    But as you noted, the United Kingdom, certainly, over the 
last year and a half, has done a 180 on its policy toward 
China. It has extensively reviewed a lot of Chinese investment 
including the nuclear power plants and elsewhere. The 
sensitivity is much higher in Europe and that is to be 
commended. The challenge is we have to create those 
alternatives. Could U.S. investment be that alternative? This 
is what I mean about turning to allies to seek that alternative 
investment rather than China.
    Ms. Manning. Thank you.
    Someone else want to jump in?
    Mr. Rough. Sure. If I could just buildupon that, I think 
one of the real challenges is these opaque funding mechanisms 
and vehicles and ambiguous partnerships that have been stood 
up. Heather mentioned grey zones of finance and responding to 
the issue of capital markets and that is certainly something 
that is making it more and more difficult for our European 
allies, even if the will is there, to identify who the end user 
or end investor is.
    It is part of the reason why I think it is important for 
the Administration to share CFIUS best practices. Of course, 
Congress passed important legislation in 2018 to expand its 
jurisdiction. We need more best practices in Europe and then 
also more intelligence sharing and widening the information 
flow to Europe on who exactly is acting and in what capacity.
    As an example of what I think is a path forward, Europe 
seems to be going the way, and I mentioned earlier to 
Congressman Chabot, the way of industrial policy. Something 
like half of its 137 critical products in the supply chains 
have some reliance on China and so they are forging out and 
pushing out into industrial policy.
    I am not sure that picking winners and losers like this is 
going to be the most impressive or effective way forward. I 
would rather see us really invest in basic research and 
development. I would like to see us push for collaboration 
across industries and across the Atlantic. We have done this in 
the past successfully.
    The Dutch company that Heather mentioned, ASML Holdings, is 
crucial to the semiconductor supply chain, and in the early 
1980's it was really researchers in the U.S., Japan, and Europe 
that began working together in a consortium that included Intel 
and two other American chip makers as well as the Department of 
Energy labs. All of that is an effective way forward and a way 
of providing that alternative along with the investment 
screening that is absolutely essential.
    Ms. Manning. Great. Thank you.
    Mr. Ferchen, a quick question for you. You said earlier in 
your comments that the major EU countries are reevaluating the 
impact of China, the need to balance economic needs with 
security concerns and geopolitical concerns, and you mentioned 
that any effort to frame this new strategic cooperation as 
anti-China will receive a frosty reception in the EU. So can 
you elaborate on that a little bit?
    Dr. Ferchen. I think it is hard enough for the EU, as the 
EU, to come together on any specific China policies. I think 
you will see that, for example, investment screening policies 
or the EU-Asia Connectivity Strategy, which are both nominally 
about China, do not really say much about China. So it is very 
difficult to get consensus at the EU level on anything related 
to China especially if it is a strong pushback.
    There are just so many different views within the EU, so 
many different structural relationships economically and 
otherwise that it is very difficult for the EU to come to an 
agreement that any kind of policy is going to be focused on 
China, especially if it is in some sense antagonistic toward 
China. That isn't that they won't adopt certain policies and 
some that are very much in line with U.S. interests, it is that 
the framing as overtly against China or adversarial toward 
China will just not fly.
    Ms. Manning. Thank you, and I yield back.
    Mr. Bera. Great. Thank you. Let me recognize my good friend 
from California, Congresswoman Young Kim.
    Ms. Kim of California. Thank you, Chairman Bera and Ranking 
Member Chabot. I want to thank all of our witnesses for joining 
us today and for your patience for staying with us this late.
    You know, over the past year, we have seen a rising level 
of concern globally regarding the security of Taiwan. Potential 
conflict over Taiwan was included in the final documents of the 
G7, NATO, and the U.S.-EU summits, signaling increased 
transatlantic concern about the threats to peace and stability 
in the Taiwan Strait.
    So, Mr. Rough, let me pose this question to you and I want 
to followup on this with a question on where Europe stands on 
Taiwan's inclusion in international organizations. We have seen 
Taiwan repeatedly muscled out of observer status at many 
international organizations including WHO. Earlier this year, I 
introduced legislation that would direct our State Department 
to push for Taiwan's inclusion at the WHO as an observer which 
has garnered a widespread bipartisan support with over 120 co-
sponsors to date.
    But we recognize that we will need strong buy-in from our 
European partners as well, so where does Europe stand on this 
issue?
    Mr. Rough. Thank you very much for that question. I would 
just start by saying that partnering with the Europeans in 
international organizations is going to be in central to check 
what China's worst practices when it comes to intellectual 
property, all the way to the activities at the World Health 
Organization. We have seen, I think, a pattern of behavior from 
Beijing on, say, 5G technologies where quite a bit has become 
public about how much pressure is being put on European 
governments not to kick Huawei out of its networks, for 
example.
    Taiwan, near and dear to the heart and soul of the CCP in 
Beijing, is the 5G issue but on steroids. And so the pressure 
that is being put to bear that one hears about anecdotally on 
European governments and on European leaders not to raise the 
Taiwan issue that it will have repercussions in market access 
to China is very high.
    And so I think while there is increased recognition after 
the crackdown on Hong Kong, the genocide designation that 
Europe joined in on Xinjiang all the way to complete denial of 
international law in the South China Sea, or over the Sino-
British 1984 declaration on Hong Kong, there is recognition 
that the Taiwanese especially to the COVID pandemic have a lot 
to offer and are a beacon of democracy and a contrast. But 
there are hesitations there and, to date, the Europeans have 
only been willing to go so far.
    Ms. Manning. Well, thank you for that. The next question is 
where the recent NATO summits final communique laid out the 
threat the CCP poses to the security of the alliance in the 
strongest terms to date, both German Chancellor Merkel and 
French President Macron downplayed that issue. Moreover, other 
NATO allies remain more focused on the threat posed by Russia.
    Mr. Rough, what does the Biden Administration need to do to 
ensure the alliance takes concrete actions to address the 
threat posed by the CCP rather than just admire the problem? In 
particular, how can the Biden Administration rally the NATO 
allies who do not see the PRC as a pressing concern and 
convince them that we cannot protect our collective security 
without confronting the PRC?
    Mr. Rough. Well, for starters, the European strategy that 
was adopted and has been much discussed today of labeling China 
a partner, a competitor, and a rival. Secretary Blinken picked 
that up in his testimony, his hearing before the Senate Foreign 
Relations Committee when he was nominated to become Secretary 
of State. And for us Americans, we might think of it as we just 
did in the previous colloquy as issue sets, so there is 
partnerships, there is areas of competition, and there is area 
of rivalry.
    But, really, part of the reason why I think the European 
Union fits the strategy so well is it allows each country to 
pick whatever designation they want and take it as their own. 
So Chancellor Merkel has never used the word ``rival'' to 
describe China. The French were not pleased at the inclusion of 
Taiwan in the NATO communique. I think that is an open secret 
at this point.
    And so there are different attitudes from, say, the Czech 
Republic all the way to Germany on Taiwan and that variation is 
there in Europe. What the Biden Administration can do is, I 
think, first of all, ensure that as the U.S. gets tougher on 
China that Europe is not an open window. So if we lock the 
door, but the Europeans on investment screening; on export 
controls, also an area we just spoke about; semiconductors 
where the U.S. has leaned on the Dutch Government to make sure 
that ASML does not export semiconductors; key materials to 
mainland China that helped us win the 5G battle, we have to 
make sure that we are robust at home on that and then we have 
to work together, I think, to forge the economic future to make 
sure there are alternatives.
    If Germany does feel like it is under pressure because 
Volkswagen in the first quarter of this year sales in China 
rose more than 60 percent, well, we want to make sure that over 
time there are new markets, there are alternatives, and that a 
free and open environment aligned on China can serve as an 
alternative to make it less painful. So I would urge us to move 
in those directions.
    Ms. Kim of California. Thank you. I could go on but I know 
my time is up, so I yield back. Thank you.
    Mr. Bera. Thank you. Let me go and recognize my friend from 
the great State of Pennsylvania, Ms. Houlahan.
    Ms. Houlahan. Thank you, Mr. Chair. Can you all hear me OK?
    Mr. Bera. Whoops. We cannot hear you.
    Ms. Houlahan. You cannot hear me?
    Mr. Bera. Do you want to sit closer to the mic?
    Ms. Houlahan. Can you hear me?
    Mr. Bera. It is very low. Sorry.
    Ms. Houlahan. Why do not you pass and I will 5:03:24 in 5 
minutes. I will pass right now.
    Mr. Bera. Great.
    Ms. Houlahan is our last member. Theresa, do we have any 
other members on?
    Ms. Lou. Chair Bera, no. At this time, Rep Houlahan is our 
last member.
    Mr. Bera. Okay. And, Chrissy, do you want to give it one 
more go at it?
    Ms. Houlahan. Yes. Is it working now or not?
    Mr. Bera. Theresa, can raise her volume or, can the 
witnesses, can you guys hear Ms. Houlahan?
    Mr. Rough. It is quiet, but I can make it out, I think.
    Mr. Bera. Let's try to make it happen.
    Ms. Houlahan. Okay.
    Mr. Bera. Chrissy, the floor is yours.
    Ms. Houlahan. Thank you. My first question has to do with 
rare earth elements and China accounts for 95 percent of that 
global
    [inaudible]. Rare earth elements which are, of course, 
essential to the
    [inaudible]. A 2020 report says that the EU identifies
    [inaudible] rare earth elements. My question is to all of 
you all. How can the United States and Europe work better 
together to reduce our dependency on
    [inaudible] monopoly on rare earth elements, both 
refinement and processing, and which key partners could we be 
engaging both
    [inaudible] in the effort?
    Mr. Bera. I think the question was about rare earth 
elements in China.
    Ms. Houlahan. Yes.
    Ms. Conley. Well, I am happy to just take a quick stab, and 
I think this is where understanding market dominance in 
particular, and I again focus on the Arctic region, and 
understanding where Chinese mining interests were very focused 
on Greenland and the rare earth minerals that are presented 
there.
    I think this was a wake-up call for the United States and 
now the United States is working with the Kingdom of Denmark to 
increase its investment opportunities and economic 
opportunities in Greenland. At the same time, the new 
Greenlandic Government has pushed back against some of the 
Chinese mining interests and seeking a different, more 
ecologically friendly, economic approach.
    So we see where we are waking up to understanding where 
these important minerals are and making sure there is diversity 
of supply which requires the U.S. to engage, and at the same 
time I think responsible home rule governments as well as 
governmental authorities understand the costs of this type of 
Chinese development. So I think there is some good news there, 
but we have to remain vigilant and focused.
    Dr. Ferchen. The only thing I would add to this is that I 
think the cost, environmental, social, and human cost for China 
to have this dominance is high and there is a recognition of 
that. And I think one of the worries is that as China seeks 
other markets to develop rare earths then those environment, 
social, and human costs will basically be exported. And I think 
this is a challenge for both the U.S. and Europe to potentially 
understand that especially in areas like Greenland.
    Ms. Houlahan. Thank you. And with what is left of my time, 
I would like to change to intellectual property and how the 
United States and EU can work together to help provide better
    [inaudible] by China or
    [inaudible].
    Mr. Bera. I am not sure if I caught the full question, but_
I think it was about investments and properties in the United 
States?
    Ms. Conley. Or was it IPR?
    Mr. Bera. Or maybe it was--yes. Okay.
    Ms. Houlahan. Intellectual property.
    Mr. Bera. Intellectual property.
    Ms. Houlahan. Yes.
    Ms. Conley. Again, I am just happy to begin and then turn 
to my fellow panelists. Again, I think Europe has had a great 
wake-up call to Chinese IPR theft. Theft, both through 
espionage but also just through straight acquisition. And I 
think this is where the German Government was very, very aware, 
which I believe it was in 2018 if I have my year correctly, of 
the Chinese potential investment into the German company KUKA, 
which is their high-end robotics.
    They understood that Germany's innovative and economic 
strength was being both was purchased and they also saw a lot 
of Chinese investment in German universities and research and 
development. That is, of course, across many excellent European 
universities and their R&D centers.
    So again acknowledgment of the problem, pushing back--that 
investment screening toolkit that the EU and member States are 
working on with different degrees of focus. A lot of this is 
intelligence. A lot of this is transparency of who the 
purchaser is. But Europe has awoken to this. They are pushing 
back and, certainly, the Germans and the British are much more 
cognizant of this, but we still have a ways to go.
    Ms. Houlahan. Thank you. I yield back the balance of my 
time and thanks for putting up with me.
    Mr. Bera. Well, great. Thank you.
    Oh, go ahead.
    Mr. Rough. I would just add, in my view, I mean this is a 
great example of where we can show the Europeans that the 
choice between the United States and China, if we do not want 
to frame it that way for a variety of reasons, is nonetheless 
real because the Chinese have perfected this model of acquiring 
stakes in companies. China's State-owned automaker owns 10 
percent of Daimler, for example. The Chinese invited major 
Japanese and French actors into joint ventures in high-speed 
rail. They acquired the technologies, licitly or illicitly, and 
now both are cut out of the market. One can imagine where 
automobiles are heading.
    The same also, I would add, on commercial aviation 
industries. These are the most competitive parts of the 
European economy where Beijing is, for example, purchasing an 
American French jet engine for their principal new commercial 
aviation prototype, and then, presumably, extracting a lot of 
the IP and a lot of the technology and then cutting us and 
others out of the market.
    So this is a pattern that we have seen on the Chinese side. 
And I think as the Europeans see that it isn't really a choice 
between the U.S. and China, but a choice between having a 
competitive economy of the future that is allowed to compete in 
a free and open world or, really, one that is kind of a Sino 
hierarchy of vassals with the Europeans underneath those 
Chinese companies, I think, as that choice becomes increasingly 
clear, they will be more and more prone to align with us on a 
variety of issues.
    Mr. Bera. Great. Thank you for that.
    And, Theresa, any additional members?
    Ms. Lou. No, sir. Not at this time.
    Mr. Bera. Okay, seeing none, I will go and make a closing 
statement. Seeing the ranking member Mr. Chabot on, certainly, 
we will give him an opportunity.
    Obviously, the fact that members came back after votes to 
ask questions suggests that this topic is one of great interest 
and real strategic importance for countries that share similar 
values of rule of law, of intellectual property rights, the 
free markets, maritime security, freedom of navigation, a 
respect of traditional international rules, human rights, et 
cetera, and these are all places where the United States and 
Europe should come together.
    And China will try to say this is about an anti-China 
strategy and the United States is trying to be hegemonic here, 
et cetera, but it is not. It is about what kind of a future do 
we want in the 21st century and fair competition based on a set 
of rules and norms is fine. Yes, I do not think we fear the 
competition of Chinese companies or China's ideas. I do not 
think Europe fears that. But this is about the values that 
bring us together in the transatlantic and, increasingly with 
our allies in Asia, in Japan and Australia and New Zealand, 
Korea young budding democracies in the ASEAN nations, India as 
a mature democracy.
    So I look forward to working together with the ranking 
member Mr. Chabot on these issues and, certainly, with our 
colleagues on the Europe Subcommittee, if not other 
subcommittees. We have to get this right and it cannot be a 
Democratic or Republican strategy, it has got to be an American 
strategy. Similar to how we worked together in the post-World 
War II era during the cold war, again on values of principle 
and ideas. And I think that is how we have to approach this.
    And yes, we did not even get into the Arctic Council, we 
touched on it, China sits here and says--the South China Sea is 
theirs. I just do not--how they claim territorial rights in the 
Arctic, and I also do not think they have those rights in the 
South China Sea either.
    So thank you to the panelists. I think this was a great 
panel. And with that let me turn it over to the ranking member 
Mr. Chabot for any closing statements he might have.
    Mr. Chabot. Thank you, Mr. Chairman. And I would just say 
ditto to the comments that you make. In order to be successful 
in our--to us it probably is more countering the PRC than it is 
our allies in Europe, but in order to be successful in our 
effort to have our principles prevail rather than their 
principles, which is authoritarianism and not rule of law and 
not human rights and on and on, we are going to need to work 
together.
    So we need to make sure that our allies in Europe are 
willing to work with us and I think that is certainly possible. 
But many of us really question their willingness to do some of 
the things which are going to be necessary for us to be 
successful in this. They have to and the previous 
administration talked about this a fair amount that they have 
been able to be free riders, essentially, in a lot of this and 
not, I know it is mentioned that well, a third of them are now 
up to their 2 percent, but that means two-thirds of them are 
not.
    So they have a long way to go and yes, I hope we can work 
together, but I hope it is not lip service that we are 
receiving from our allies in the future. That it is a real 
willingness to do some of the heavy lifting that is going to be 
necessary if the principles that we all believe in are going to 
prevail in this long-term, for lack of a better term, let's say 
rivalry that we have. And that is probably as nice a word as 
you can put on it.
    But thank you for holding this hearing. I think the 
witnesses were excellent, and I will yield back.
    Mr. Bera. Okay. Thank you to the ranking member. And, 
really, again want to reiterate my thanks to the witnesses, 
certainly, for holding on there as we had votes interrupt our 
hearing and for being willing to come back and finish out the 
hearing. And with that the meeting and hearing is now 
adjourned. Virtual gavel coming down. Thank you, everyone.
    Mr. Chabot. Thank you.
    [Whereupon, at 5:15 p.m., the subcommittees were 
adjourned.]

               APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                                

        STATEMENT FOR THE RECORD
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                        



                                 <all>
</pre></body></html>
